OIG Audit Report 09-16
Federal Bureau of Investigation Annual Financial Statement - Fiscal Year 2008
Audit Report 09-16
February 2009
Office of the Inspector General
Commentary and Summary
This audit report contains the  Annual Financial Statement of the Federal Bureau of Investigation (FBI)  for the fiscal years (FY) ended September 30, 2008, and September 30, 2007.  Under the direction of the Office of the  Inspector General (OIG), KPMG LLP performed the FBI’s audit, which resulted in  an unqualified opinion on the FY 2008 financial statements. An unqualified opinion means that the  financial statements present fairly, in all material respects, the financial  position and results of the entity’s operations in conformity with U.S.  generally accepted accounting principles. For FY 2007, the FBI also  received an unqualified opinion on its financial statements (OIG Report No.  08-07).
KPMG LLP also issued reports  on internal control over financial reporting and on compliance and other  matters.  For FY 2008, the Independent  Auditors’ Report on Internal Control over Financial Reporting identified one  significant deficiency.  The significant  deficiency relates to insufficient controls over the FBI’s financial reporting  process.  Specifically, improvements are  needed in the FBI’s quality assurance controls over financial statements and  footnotes at year-end and formal policies and procedures need to be updated.
In their Report on Compliance  and Other Matters, the auditors concluded that the FBI’s financial management  systems did not substantially comply with federal financial system requirements  and the United States Standard General Ledger at the transaction level as  required by the Federal Financial Management Improvement Act of 1996 (FFMIA).  The non-compliance with FFMIA was also reported for FY 2007.
The OIG reviewed KPMG LLP’s reports and  related documentation and made necessary inquires of its representatives.  Our review, as differentiated from an audit  in accordance with U.S. generally accepted government auditing standards, was  not intended to enable us to express, and we do not express, an opinion on the FBI’s  financial statements, conclusions about the effectiveness of internal control,  conclusions on whether the FBI’s financial management systems substantially  complied with the FFMIA, or conclusions on compliance with laws and  regulations.  KPMG LLP is responsible for  the attached auditors’ reports dated November 5, 2008, and the conclusions  expressed in the reports. However, our  review disclosed no instances where KPMG LLP did not comply, in all material  respects, with U.S. generally accepted government auditing standards.
Return to OIG Home Page